                  The 2003 Filing Season Was Completed
                 Timely and Accurately, but Some New Tax
                    Law Changes Were Not Effectively
                                Implemented

                                   October 2003

                       Reference Number: 2004-40-003




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       October 17, 2003


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                           Gordon C. Milbourn III
                                       Assistant Inspector General for Audit (Small Business and
                                       Corporate Programs)

       SUBJECT:                        Final Audit Report - The 2003 Filing Season Was Completed
                                       Timely and Accurately, but Some New Tax Law Changes Were
                                       Not Effectively Implemented (Audit # 200240076)


       This report presents the results of our review to determine whether the Internal
       Revenue Service (IRS) timely and accurately processed paper and electronic individual
       income tax returns during the 2003 Filing Season.1 The audit focused on the
       implementation of tax law changes2 that affected Tax Year (TY) 2002 individual income
       tax returns.
       Overall, the 2003 Filing Season went well and most of the 122 million individual income
       tax returns received through May 30, 2003, were timely and accurately processed. We
       determined that the IRS correctly implemented most of the key tax law changes that
       affected TY 2002 individual income tax returns. However, we identified some areas of
       the tax laws that were not correctly implemented and could result in loss of taxpayer
       entitlements and erroneous tax assessments. For example, we identified taxpayers that
       were allowed retirement savings contributions credits and student loan interest
       deductions in excess of the amounts allowed by the new tax law changes, taxpayers
       with potential unclaimed Additional Child Tax Credits (ACTC), and taxpayers that were
       allowed a “dual benefit” for the tuition and fees deduction and the education credit.
       Correctly implementing tax law changes is one of the biggest challenges facing the IRS
       every filing season. The recommendations included in this report can assist the IRS in
       meeting this challenge by improving compliance with new tax legislation. Specifically,
       we recommended the Commissioner, Wage and Investment Division, continue to notify

       1
           The period from January through mid-April when most individual income tax returns are filed.
       2
           See Appendix VII for an overview of the tax law provisions examined during this review.
                                            2

taxpayers that appear eligible for the ACTC and strengthen controls to prevent some
taxpayers from receiving erroneous tax reductions by claiming the tuition and fees
deduction when they have also claimed an education credit (dual benefit).
Management’s Response: The IRS was pleased that our report recognized the success
of the 2003 Filing Season. IRS management agreed with three of our four
recommendations and is considering the fourth recommendation, but needs additional
information prior to making a determination. Specifically, the IRS agreed to follow
through with its plans to advise taxpayers who appear eligible but did not claim the
ACTC on their 2002 tax returns, and will identify potentially eligible taxpayers during the
processing of 2003 tax returns and notify them of their potential eligibility. The IRS
plans to integrate the identification and notification of potentially eligible ACTC
taxpayers into the tax return processing process for tax years after 2003. The IRS also
agreed to revise Education Credits (Hope and Lifetime Learning Credits) (Form 8863)
for TY 2003 to include a cautionary statement advising taxpayers that they cannot claim
the tuition and fees deduction and an education credit for the same individual, and will
consider the feasibility of a programming change to identify this issue during tax return
processing. The IRS will request the additional information from IRS Chief Counsel
before making the final decision. Finally, the IRS will have representatives from
Submission Processing, Compliance, and Tax Forms and Publications review the
results of examinations of tax returns claiming both the education tuition and fees
deduction to determine if corrective actions are needed to address any identified
compliance trends. Management’s complete response to the draft report is included as
Appendix VIII.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                The 2003 Filing Season Was Completed Timely and Accurately,
              but Some New Tax Law Changes Were Not Effectively Implemented




                                                 Table of Contents


Background ............................................................................................... Page 1
The 2003 Filing Season Was Timely Completed With
Most Returns Accurately Processed.......................................................... Page 2
Taxpayers Benefit From Corrections of Programming Errors .................... Page 4
Actions Have Been Scheduled to Correct Several Conditions
Previously Reported .................................................................................. Page 5
Efforts Continue to Ensure Taxpayers Receive the
Additional Child Tax Credit ........................................................................ Page 7
         Recommendation 1: ...................................................................... Page 8

Tuition and Fees Deduction and Education Credit
Create Questionable “Dual Benefit”........................................................... Page 9
         Recommendation 2: ..................................................................... Page 10

         Recommendations 3 and 4: .......................................................... Page 11

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 12
Appendix II – Major Contributors to This Report........................................ Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Outcome Measures ............................................................ Page 17
Appendix V – Table: Tax Law Changes That Were Not
Correctly Implemented .............................................................................. Page 20
Appendix VI – Listing of Prior Reviews to Assess the Internal
Revenue Service’s Preparation for the 2003 Filing Season ...................... Page 21
Appendix VII – Overview of Tax Law Provisions Examined
During the Review ..................................................................................... Page 23
Appendix VIII – Management’s Response to the Draft Report .................. Page 27
           The 2003 Filing Season Was Completed Timely and Accurately,
         but Some New Tax Law Changes Were Not Effectively Implemented

                              The filing season1 affects individual taxpayers and is always
Background
                              a highly critical program for the Internal Revenue Service
                              (IRS). The IRS estimated that 132.3 million2 individual
                              income tax returns would be filed during Calendar Year
                              (CY) 2003 and that most of these would be filed during the
                              filing season. It is during the filing season that most
                              individuals file their income tax returns and call the IRS if
                              they have questions about specific tax laws or filing
                              procedures.
                              Correctly implementing tax law changes is one of the
                              biggest challenges facing the IRS every filing season. This
                              is because the IRS must identify the tax law changes; revise
                              the various tax forms, instructions, and publications; and
                              reprogram its computer system used in processing returns.
                              In CY 2003, the IRS processed individual income tax
                              returns at 10 Submission Processing sites located
                              throughout the country. Of these 10 sites, 8 are Wage and
                              Investment (W&I) Division sites3 and 2 are Small Business/
                              Self-Employed (SB/SE) Division sites.4 The eight
                              W&I Division sites processed paper filed individual income
                              tax returns, and three of these sites also processed
                              electronically filed individual income tax returns. The two
                              SB/SE Division sites processed the returns of small
                              businesses and self-employed taxpayers, along with
                              electronically filed individual income tax returns. However,
                              if any conditions requiring further processing are identified
                              on the electronic individual returns, they are sent to the
                              Austin or Andover Submission Processing Sites for
                              resolution.


                              1
                                The period from January through mid-April when most individual
                              income tax returns are filed.
                              2
                                This estimate includes 78 million paper returns and 54.3 million
                              electronic returns.
                              3
                                The W&I Division sites assist approximately 121 million taxpayers
                              that file almost 93 million individual income tax returns with no
                              accompanying business schedules (based on Tax Year 2000 data).
                              4
                                The SB/SE Division sites assist approximately 7 million small
                              businesses, including corporations and partnerships with assets of
                              $10 million or less. They also assist approximately 33 million
                              self-employed and supplemental income earners that have more
                              complex tax issues.
                                                                                             Page 1
              The 2003 Filing Season Was Completed Timely and Accurately,
            but Some New Tax Law Changes Were Not Effectively Implemented

                                 Tax returns and related schedules are processed through the
                                 IRS’ computer system and recorded on each individual’s tax
                                 account. This computer system is made up of a complex
                                 series of sub-systems that are nationally linked and
                                 programmed to check the validity and math accuracy of the
                                 data provided.
                                 IRS sources indicated that as of May 30, 2003,
                                 approximately 99 million individual income tax returns had
                                 been processed this year without an error. There were
                                 15 million returns on which an error was found.5 While not
                                 all errors require a taxpayer notice, in some instances, when
                                 a taxpayer error is found during processing, the IRS will
                                 send a notice that asks for additional information or explains
                                 any change that is made to the amount of tax due or refund.
                                 As part of our overall 2003 Filing Season audit strategy, we
                                 conducted several reviews (see Appendix VI for a listing of
                                 these reviews) to assess the IRS’ preparation for processing
                                 individual income tax returns during the 2003 Filing
                                 Season. This review is a continuation of that strategy and
                                 determined the effects on taxpayers of previously identified
                                 issues.
                                 We conducted this review from January through
                                 May 2003 at the W&I Division office in Atlanta, Georgia,
                                 and the Submission Processing offices in Cincinnati, Ohio,
                                 and New Carrollton, Maryland. Audit fieldwork was
                                 performed at the Austin and Kansas City Submission
                                 Processing Sites.
                                 This audit was conducted in accordance with Government
                                 Auditing Standards. Detailed information on our audit
                                 objective, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 Overall, the 2003 Filing Season went well and most of the
The 2003 Filing Season Was
                                 122 million individual income tax returns received through
Timely Completed With Most
                                 May 30, 2003, were timely and accurately processed. The
Returns Accurately Processed
                                 IRS completed processing of returns on schedule and timely
                                 issued refunds within the required 45 days of the

                                 5
                                     These errors include taxpayer and IRS errors.
                                                                                        Page 2
  The 2003 Filing Season Was Completed Timely and Accurately,
but Some New Tax Law Changes Were Not Effectively Implemented

                     April 15, 2003, return due date.6 As of May 30, 2003, the
                     IRS had processed over 114 million individual income tax
                     returns (including 52 million processed electronically, an
                     increase of 12 percent over 2002). The biggest increase in
                     alternative ways of filing was seen in the On-Line Filing
                     From Home Computers volumes. In May 2003, the IRS
                     reported that nearly 12 million taxpayers had used this filing
                     method, which is a 27 percent increase over last year.
                     The 2003 Filing Season included several new and
                     significant tax law changes, many created by the Economic
                     Growth and Tax Relief Reconciliation Act of 2001
                     (EGTRRA).7 Two of these changes will assist taxpayers
                     with the costs of education and encourage retirement
                     savings. These changes are significant because they could
                     help an estimated 86.5 million taxpayers by providing tax
                     benefits of up to $7.6 billion in Fiscal Year 2003. See
                     Appendix VII for an overview of the tax law provisions
                     examined during this review.
                     Our review of the IRS’ implementation of the following key
                     tax law changes for the 2003 Filing Season (affecting Tax
                     Year (TY) 2002 individual tax returns) showed that most of
                     the following changes were correctly implemented or
                     subsequently corrected after processing began:
                     •     Tuition and Fees Deduction.
                     •     Retirement Savings Contributions Credit.
                     •     Individual Retirement Arrangements (IRA) Deduction.
                     •     Student Loan Interest Deduction.
                     •     Adoption Credit.
                     •     Educator Expense Deduction.
                     •     Earned Income Tax Credit.




                     6
                         Internal Revenue Code (I.R.C.) § 6611(e) (2002).
                     7
                         Pub. L. No. 107-16, 115 Stat. 38 (2001).
                                                                            Page 3
              The 2003 Filing Season Was Completed Timely and Accurately,
            but Some New Tax Law Changes Were Not Effectively Implemented

                                 While most of these changes were correctly implemented,
Taxpayers Benefit From
                                 we did identify some areas of the tax laws that were not
Corrections of Programming
                                 correctly implemented and could result in loss of taxpayer
Errors
                                 entitlements and erroneous tax assessments. 8
                                 Last year, we initiated several reviews to assess the IRS’
                                 preparation for the 2003 Filing Season. One review9
                                 focused on computer program revisions for key tax law
                                 changes that would affect TY 2002 individual income tax
                                 returns. We included follow-up tests pertaining to these
                                 revisions in this review to assess the effect on taxpayers and
                                 return processing during the 2003 Filing Season.
                                 In the prior review, we identified an inconsistency between
                                 the IRS’ computer program and the tax law. The IRS
                                 planned to not allow the retirement savings contributions
                                 credit to taxpayers that could be claimed as a dependent on
                                 another taxpayer’s return. For example, assume a taxpayer
                                 files a return and claims the credit but does not claim a
                                 personal exemption. When this taxpayer does not claim his
                                 or her personal exemption, the IRS interprets the omission
                                 as an indication that someone else, such as a parent, can
                                 claim the taxpayer as a dependent. However, the law states
                                 that the dependency exemption must have been actually
                                 claimed by someone else for the taxpayer to not be eligible
                                 for the retirement savings contributions credit. The mere
                                 indication of the possibility that a taxpayer can be claimed
                                 as a dependent does not disqualify this taxpayer.
                                 Based upon our identification and reporting of this issue
                                 during the prior review, the IRS took actions early in the
                                 2003 Filing Season that corrected the computer program.
                                 The results of an analysis of returns processed through
                                 May 16, 2003, showed that 4,083 taxpayers received credits
                                 totaling over $833,000 that otherwise would have been
                                 disallowed if the IRS had not made the correction.



                                 8
                                   See Appendix V for the specific tax law changes that were not
                                 correctly implemented.
                                 9
                                   Computer Programming Requests for the 2003 Filing Season Were
                                 Timely Prepared and Generally Accurate (Reference Number:
                                 2003-40-112, dated May 2003).
                                                                                            Page 4
              The 2003 Filing Season Was Completed Timely and Accurately,
            but Some New Tax Law Changes Were Not Effectively Implemented

                                 Also in the prior review, we identified a computer
                                 programming error that would have affected taxpayers with
                                 the following characteristics:
                                 •    Married filing jointly filing status.
                                 •    Modified Adjusted Gross Income (AGI) 10 between
                                      $64,000 and $150,000.
                                 •    Claiming the additional $500 IRA deduction for
                                      1 spouse age 50 or older and not covered by a retirement
                                      plan.
                                 The IRS planned to disallow the additional $500 IRA
                                 deduction on returns that claimed a deduction for a
                                 self-employed retirement plan.11 However, the tax law
                                 indicates that the spouse who is age 50 or older and not
                                 covered by a retirement plan is eligible for the additional
                                 $500 IRA deduction.
                                 The IRS corrected its computer program early in the
                                 2003 Filing Season. Using computer analysis, we verified
                                 that eligible taxpayers were correctly allowed the additional
                                 $500 deduction. However, we were unable to determine the
                                 number of returns affected because we did not obtain the
                                 necessary computer data to perform the analysis.
                                 Many tax credits and deductions that individual taxpayers
Actions Have Been Scheduled to
                                 may claim are subject to limitations based upon the
Correct Several Conditions
                                 taxpayer’s AGI or modified AGI. The EGTRRA created
Previously Reported
                                 the new retirement savings contributions credit and
                                 increased the income limitation for the student loan interest
                                 deduction. These provisions have a phase-out range when
                                 the deduction or credit is reduced and then eliminated, or
                                 “phased out,” as the AGI or modified AGI increases and
                                 then reaches the upper limit.
                                 For the two provisions mentioned above, we determined
                                 that the IRS disallowed the credit or deduction when the

                                 10
                                    The AGI is calculated after certain adjustments are made, but before
                                 standard or itemized deductions and personal exemptions are subtracted.
                                 Modified AGI is AGI calculated without regard to certain deductions or
                                 exclusions.
                                 11
                                    This deduction is claimed on line 31 of the United States (U.S.)
                                 Individual Income Tax Return (Form 1040) for TY 2002.
                                                                                                Page 5
  The 2003 Filing Season Was Completed Timely and Accurately,
but Some New Tax Law Changes Were Not Effectively Implemented

                     upper limit was exceeded. However, the IRS did not have
                     procedures in place to identify and adjust the credit or
                     deduction when the AGI or modified AGI fell within the
                     phase-out range. This allowed taxpayers to receive a larger
                     credit or deduction than they were entitled to receive.
                     Retirement Savings Contributions Credit – The results of an
                     analysis of returns processed through May 16, 2003, showed
                     that 8,860 taxpayers received credits that exceeded the
                     amount allowable under the tax law. The excess credits
                     totaled over $4 million.
                     We first identified this issue during the review of the IRS’
                     preparation for the 2003 Filing Season.12 At that time, the
                     IRS told us that the new tax form for claiming the credit,
                     Credit for Qualified Retirement Savings Contributions
                     (Form 8880), was not available in time to design a computer
                     programming change to account for the different credit
                     percentages based upon AGI and filing status. However, in
                     the IRS’ management response to our report, the IRS stated
                     the computer programs for the 2004 Filing Season will be
                     revised to verify that the credit has been properly reduced
                     based upon the taxpayer’s AGI and filing status. We will
                     follow up to ensure the correction is implemented for the
                     2004 Filing Season.
                     Student Loan Interest Deduction – We identified
                     6,837 taxpayers that were erroneously allowed deductions
                     that exceeded the allowable amount under the tax law based
                     upon their modified AGI and filing status. The excess
                     deductions totaled over $5 million.13 Assuming all
                     6,837 taxpayers received a tax benefit from the student loan
                     interest deduction, the estimated tax effect is $500,000.14



                     12
                        Computer Programming Requests for the 2003 Filing Season Were
                     Timely Prepared and Generally Accurate (Reference Number:
                     2003-40-112, dated May 2003).
                     13
                        This computation assumes each taxpayer’s gross student loan interest
                     amount was $2,500 and excludes returns on which the excess deduction
                     was less than $100.
                     14
                        We used the lowest tax rate of 10 percent to compute the tax effect
                     (i.e., 10 percent times $5 million of student loan interest deductions
                     equals a tax effect of $500,000).
                                                                                     Page 6
               The 2003 Filing Season Was Completed Timely and Accurately,
             but Some New Tax Law Changes Were Not Effectively Implemented

                                   We first identified this issue during the review mentioned
                                   above.12 IRS management responded that they planned to
                                   correct their computer programs to limit the deduction based
                                   upon the taxpayer’s modified AGI and filing status
                                   beginning with the 2004 Filing Season. We will follow up
                                   to ensure the correction is implemented for the 2004 Filing
                                   Season.
                                   In prior TIGTA reviews,15 we reported that during the
Efforts Continue to Ensure
                                   2002 Filing Season, the IRS processed over 600,000
Taxpayers Receive the Additional
                                   TY 2001 individual income tax returns on which taxpayers
Child Tax Credit
                                   appeared eligible for, but did not claim, Additional Child
                                   Tax Credits (ACTC) totaling $238 million. We
                                   recommended that the IRS reevaluate placing a higher
                                   priority on the discretionary computer programming
                                   necessary to implement future outreach initiatives based on
                                   the related tax laws that the initiatives are intended to
                                   support. The IRS declined the recommendation and did not
                                   implement any additional computer programming to
                                   identify taxpayers that appeared eligible for, but did not
                                   claim, the ACTC.
                                   However, the IRS did agree to mail a special notice to
                                   taxpayers advising them of their potential eligibility for the
                                   ACTC. We assisted in this notification effort by providing
                                   the names and addresses of taxpayers who appeared eligible
                                   for, but did not claim, the ACTC on TY 2001 returns
                                   processed through October 4, 2002. In November 2002, the
                                   IRS began mailing the special notices to the 644,008
                                   taxpayers identified as potentially eligible for the ACTC.16
                                   This effort had a positive effect. Of these 644,008
                                   taxpayers, approximately 499,555 (78 percent) had filed a



                                   15
                                      Outreach Initiatives Need to Ensure Taxpayers Receive the Benefit of
                                   the Child Tax and Additional Child Tax Credits (Reference Number:
                                   2002-40-203, dated September 2002), and Although the 2002 Filing
                                   Season Was Completed Timely, Customer Service Can Be Improved
                                   During Error Processing (Reference Number: 2002-40-200, dated
                                   September 2002).
                                   16
                                      Analysis of Statistical Information for Returns With Potentially
                                   Unclaimed Additional Child Tax Credit (Reference Number:
                                   2003-40-046, dated January 2003).
                                                                                                   Page 7
  The 2003 Filing Season Was Completed Timely and Accurately,
but Some New Tax Law Changes Were Not Effectively Implemented

                     TY 2002 return as of August 1, 2003,17 with no potentially
                     unclaimed ACTC.
                     The IRS is continuing its efforts to address this condition in
                     2003. In a memorandum dated March 18, 2003, the
                     Commissioner, W&I Division, again requested our
                     assistance in identifying the taxpayers that appear eligible
                     for, but did not claim, the ACTC on their TY 2002 returns.
                     The IRS intends to use this data to mail potentially eligible
                     taxpayers information needed to claim the ACTC.
                     We completed this request and informed the IRS on
                     August 21, 2003, that we had identified 293,833 taxpayers
                     with potentially unclaimed ACTC totaling $131 million on
                     TY 2002 returns processed through August 1, 2003. It is
                     important that taxpayers are aware of this valuable tax
                     benefit because the recently enacted Jobs and Growth Tax
                     Relief Reconciliation Act of 200318 provision that increases
                     the Child Tax Credit (CTC) to $1,000 will also likely
                     increase the number of taxpayers eligible for the ACTC in
                     TY 2003.
                     For TY 2003 returns, the IRS has submitted a computer
                     programming change to identify taxpayers that appear
                     eligible for the ACTC but did not claim the credit.

                     Recommendation

                     1. The Commissioner, W&I Division, should continue with
                        plans, as outlined in the March 18, 2003, memorandum,
                        to identify and notify taxpayers by a process similar to
                        that used for TY 2001 returns, and to notify taxpayers in
                        2003 and beyond that appear eligible for the ACTC but
                        did not claim the credit.
                     Management’s Response: The IRS plans a mail-out similar
                     to that for TY 2001 filers for both TYs 2002 and 2003. For
                     tax years after 2003, the IRS plans to integrate the
                     identification and notification of taxpayers into returns


                     17
                        The ACTC totals were accumulated through August 1, 2003, at the
                     request of the IRS.
                     18
                        Pub. L. No. 108-27, 117 Stat. 752 (2003).
                                                                                  Page 8
              The 2003 Filing Season Was Completed Timely and Accurately,
            but Some New Tax Law Changes Were Not Effectively Implemented

                                 processing rather than notifying taxpayers by a mail-out
                                 after the filing season.
                                 For the 2003 Filing Season, taxpayers were allowed to take
Tuition and Fees Deduction and
                                 a deduction of up to $3,000 for qualified tuition and fees
Education Credit Create
                                 paid for the taxpayers, their spouses, or their dependents.
Questionable “Dual Benefit”
                                 However, taxpayers may not receive a “dual benefit” by
                                 taking both the tuition and fees deduction and the education
                                 credit for the same student.
                                 The results of an analysis of returns processed through
                                 May 16, 2003, showed that 294,743 taxpayers claimed both
                                 the tuition and fees deduction and the education credit.
                                 These taxpayers were allowed nearly $608 million of tuition
                                 and fees deductions and over $231 million of education
                                 credits.
                                 The 294,743 taxpayers included 42,058 taxpayers with a
                                 filing status of “single” and no dependents19 who
                                 erroneously claimed approximately $77 million in tuition
                                 and fees deductions and over $24 million in education
                                 credits. Assuming all 42,058 taxpayers received a tax
                                 benefit from the tuition and fees deduction,20 the estimated
                                 tax effect is $7.7 million.21 The remaining 252,68522
                                 taxpayers claimed $531 million in tuition and fees
                                 deductions and $207 million in education credits.
                                 Taxpayers who claim education credits are required to
                                 complete Education Credits (Hope and Lifetime Learning
                                 Credits) (Form 8863) and identify the student, by name and
                                 Social Security Number, for whom the credit is being

                                 19
                                    We focused on single taxpayers with no dependents because it is clear
                                 that both the tuition and fees deduction and the education credit would
                                 have been claimed for the same individual, which is not allowable and,
                                 therefore, an error. It is not as clear with the taxpayer populations that
                                 filed as married filing jointly with or without dependents, head of
                                 household, and single with dependents. These taxpayers could have
                                 claimed the tuition and fees deduction and education credit for the same
                                 individual or for different individuals, which is allowable.
                                 20
                                    The tuition and fees deduction should be disallowed if the taxpayer
                                 also claims the education credit.
                                 21
                                    We used the lowest tax rate of 10 percent to compute the tax effect
                                 (i.e., 10 percent times $77 million of tuition and fees deductions equals a
                                 tax effect of $7.7 million).
                                 22
                                    Population of 294,743 minus 42,058.
                                                                                                   Page 9
  The 2003 Filing Season Was Completed Timely and Accurately,
but Some New Tax Law Changes Were Not Effectively Implemented

                     claimed. Taxpayers who claim the tuition and fees
                     deduction, however, are not required to provide additional
                     information, other than what is already on the return, to
                     identify the student for whom the deduction is being
                     claimed. Thus, the IRS is unable, manually or
                     electronically, to compare individual identifying
                     information for the tuition and fees deduction with the
                     individual identifying information captured on Form 8863
                     for the education credit and prevent taxpayers from claiming
                     a “dual benefit” for the same student.
                     We discussed this issue with W&I Division and Submission
                     Processing officials who plan to review the issue further.
                     IRS managers in the Tax Forms and Publications function
                     have taken the position that, since the tuition and fees
                     deduction is limited to expenses paid during the year by the
                     taxpayers, their spouses, or dependents, the identifying
                     information is already provided on the top half of the tax
                     return, which satisfies the legal requirement. They contend
                     that requiring additional identifying information from the
                     taxpayer regarding the tuition and fees deduction would
                     unnecessarily increase taxpayer burden. However, they
                     agreed to add a cautionary statement at the top of
                     Form 8863 to specifically alert taxpayers not to claim both
                     the tuition and fees deduction and the education credit for
                     the same student. This change will appear on the TY 2003
                     Form 8863.
                     The W&I Division’s Compliance function is currently
                     planning a project for Fiscal Year 2004 that will examine
                     returns claiming the tuition and fees deduction. The
                     purpose will be to determine if the deduction is allowable
                     and if the education credit was also allowed.

                     Recommendations

                     To ensure that taxpayers do not improperly claim a dual
                     benefit with the tuition and fees deduction and the education
                     credit, the Commissioner, W&I Division, should:
                     2. Modify Form 8863 by adding a caution to taxpayers that
                        they cannot claim the tuition and fees deduction and the
                        education credit for the same individual.

                                                                          Page 10
  The 2003 Filing Season Was Completed Timely and Accurately,
but Some New Tax Law Changes Were Not Effectively Implemented

                     Management’s Response: The TY 2003 revision of
                     Form 8863 will have a cautionary statement advising
                     taxpayers that they cannot claim a tuition and fees deduction
                     and an education credit for the same individual.
                     3. Revise IRS computer programs to identify individual
                        income tax returns filed by single taxpayers with no
                        dependents that claim both the tuition and fees
                        deduction and the education credit.
                     Management’s Response: The IRS is considering this
                     recommendation but needs additional information before
                     making a determination. The IRS will ask IRS Chief
                     Counsel to provide an opinion on the legal issues of
                     denying, during the processing of the return, the tuition and
                     fees deduction when a single taxpayer with no dependents
                     also claimed the education credit. Based on IRS Counsel’s
                     opinion and other feasibility considerations, the IRS will
                     decide by January 15, 2004, if it will implement this
                     recommendation.
                     4. Identify and coordinate corrective actions between the
                        Submission Processing and Tax Forms and Publications
                        functions that result from the IRS’ planned examination
                        of tax returns claiming the tuition and fees deduction.
                     Management’s Response: Representatives from the W&I
                     Division’s Submission Processing, Compliance, and Tax
                     Forms and Publications functions will coordinate to review
                     the results of the examinations of tax returns claiming the
                     tuition and fees deduction. Based on this research, the
                     representatives will determine if corrective actions are
                     needed to address any identified compliance trends.




                                                                           Page 11
               The 2003 Filing Season Was Completed Timely and Accurately,
             but Some New Tax Law Changes Were Not Effectively Implemented

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine whether the Internal Revenue Service (IRS)
timely and accurately processed paper and electronic individual income tax returns during the
2003 Filing Season.1 The audit focused on the implementation of tax law changes2 that affected
Tax Year (TY) 2002 individual income tax returns. To accomplish our objective, we:
I.      Evaluated whether the IRS correctly implemented new tax legislation that could affect
        the processing of individual income tax returns during the 2003 Filing Season.
        A. Used 100 percent computer analysis of TY 2002 individual income tax returns
           processed nationally between January 1 and May 16, 2003, to determine if systemic
           controls at the Submission Processing sites incorrectly:
             1. Allowed deductions for educator expenses that exceeded the $250 limit ($500 if
                married filing jointly).
             2. Allowed deductions for tuition and fees that exceeded predetermined limits based
                on the taxpayers’ filing statuses and modified Adjusted Gross Income (AGI),3 or
                if the taxpayer claimed an education credit for the same student.
             3. Allowed deductions for student loan interest that exceeded predetermined limits
                based on the taxpayers’ filing statuses and modified AGI.
             4. Processed deductions for the Individual Retirement Arrangements (IRA) by:
                a) Allowing deductions that exceeded $3,000 or $6,000 if married filing jointly.
                b) Allowing deductions that exceeded the predetermined limit based on the
                   taxpayer’s modified AGI.
                c) Disallowing an additional $500 deduction for taxpayers 50 or older.
             5. Processed credits for the retirement savings contributions by:
                a) Allowing credits that exceeded predetermined limits based on the taxpayers’
                   filing statuses and AGI.
                b) Disallowing credits to taxpayers that could be claimed as a dependent on
                   another taxpayer’s return.




1
  The period from January through mid-April when most individual income tax returns are filed.
2
  See Appendix VII for an overview of the tax law changes examined during this review.
3
  The AGI is calculated after certain adjustments are made, but before standard or itemized deductions and personal
exemptions are subtracted. Modified AGI is AGI calculated without regard to certain deductions or exclusions.
                                                                                                           Page 12
               The 2003 Filing Season Was Completed Timely and Accurately,
             but Some New Tax Law Changes Were Not Effectively Implemented

             6. Allowed adoption credits that exceeded the allowable amount of $10,000 per
                child or the predetermined limits based on the taxpayer’s modified AGI.
         B. For the returns identified as having deductions and/or credits incorrectly processed in
            Step A above, we judgmentally selected samples from one or more IRS processing
            cycles4 to validate the exception criteria. Our 100 percent computer analysis
            identified taxpayers that incorrectly claimed the following:
             1. A dual benefit for both the tuition and fees deduction and education credit. We
                reviewed 60 returns from the 33,499 processed through March 14, 2003, and
                identified a total population of 294,743 processed through May 16, 2003.
             2. A student loan interest deduction that exceeded the allowable amount based upon
                the modified AGI. We reviewed 30 returns from the 1,913 processed through
                March 21, 2003, and identified a total population of 6,837 processed through
                May 16, 2003.
             3. A retirement savings contributions credit that exceeded the allowable amount
                based upon the taxpayers’ filing statuses and AGI. We reviewed 35 returns from
                the 542 processed through February 21, 2003, and identified a total population of
                8,860 processed through May 16, 2003.
         C. Manually screened TY 2002 individual income tax returns between January 29 and
            February 3, 2003, at the Austin Submission Processing Site and reviewed 30 returns
            claiming the Earned Income Tax Credit (EITC) to ensure the following:
                      The EITC amount was increased for certain jointly filed returns.
                      The new definition of earned income was properly applied.
                      The Alternative Minimum Tax was not used to reduce the EITC.
                      The modified AGI was eliminated from the EITC calculation.
II.      Determined whether the IRS’ monitoring system indicated that returns were being
         processed timely and accurately.
         A. Monitored various Submission Processing site production and inventory reports
            produced between January and April 25, 2003.
         B. Monitored the Error Resolution System (ERS)5 inventories from various ERS reports
            produced between January and April 25, 2003, to determine whether any ERS
            capacity issues caused any processing delays in the resolution of errors on returns.


4
  Submission Processing sites process returns on a weekly basis that ends each Friday of the calendar year.
Each weekly period is referred to as a “cycle.” For example, the cutoff date for cycle 200321 is May 16, 2003.
5
  The ERS is used to correct errors made by taxpayers or IRS employees during the initial processing of tax returns.
                                                                                                            Page 13
               The 2003 Filing Season Was Completed Timely and Accurately,
             but Some New Tax Law Changes Were Not Effectively Implemented

        C. Monitored the weekly teleconferences coordinated by the Submission Processing
           office in Cincinnati, Ohio, and the Austin Submission Processing Site weekly
           meetings between January and April 2003, to identify emerging issues that could
           affect the processing of TY 2002 individual income tax returns.
        D. Monitored the Submission Processing office web site, the IRS public web site, and
           other web sites deemed necessary to identify potentially significant issues that could
           affect the processing of TY 2002 individual income tax returns.
III.    Evaluated whether the IRS corrected problems identified in a prior Treasury Inspector
        General for Tax Administration report.6
        A. Used the computer to extract and analyze IRS Individual Master File (IMF)7 Return
           Transaction File return data processed between January and August 1, 2003, to
           identify TY 2002 individual income tax returns on which the taxpayer appeared to be
           eligible for, but did not claim, the Additional Child Tax Credit (ACTC).8
        B. Evaluated a judgmental sample of 30 return records to determine whether the
           computation of the unclaimed ACTC was correct.




6
  Outreach Initiatives Need to Ensure Taxpayers Receive the Benefit of the Child Tax and Additional Child Tax
Credits (Reference Number: 2002-40-203, dated September 2002).
7
  The IMF is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                         Page 14
             The 2003 Filing Season Was Completed Timely and Accurately,
           but Some New Tax Law Changes Were Not Effectively Implemented

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Gary L. Young, Acting Director
Tina M. Parmer, Acting Audit Manager
Linda L. Bryant, Senior Auditor
Sharon A. Buford, Senior Auditor
Carola A. Gaylord, Senior Auditor
John L. Hawkins, Senior Auditor
Steve E. Vandigriff, Senior Auditor
Lawrence N. White, Senior Auditor
John P. Ojeda, Auditor
Bonnie G. Shanks, Auditor
Joe C. Butler, Computer Specialist




                                                                                         Page 15
            The 2003 Filing Season Was Completed Timely and Accurately,
          but Some New Tax Law Changes Were Not Effectively Implemented

                                                                     Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attention: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services SE:W:CAS
Director, Strategy and Finance SE:W:S
Director, Submission Processing SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison SE:W:S:PA




                                                                          Page 16
               The 2003 Filing Season Was Completed Timely and Accurately,
             but Some New Tax Law Changes Were Not Effectively Implemented

                                                                                                  Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
For all of the outcomes listed in this appendix, we conducted computer analyses of Tax Year
(TY) 2002 individual income tax return records. The records were processed by the Internal
Revenue Service (IRS) Submission Processing sites between January 1, 2003, and
May 16, 2003,1 and posted to the Individual Master File (IMF).2 We developed specific criteria
to identify returns affected by the tax law changes covered in this review. We used further
computer analysis and auditor evaluation of return data to determine if the IRS accurately
processed individual paper and electronic tax returns during the 2003 Filing Season.3
Type and Value of Outcome Measure:
    •   Taxpayer Rights and Entitlements – Actual; 4,083 taxpayers received retirement savings
        contributions credits totaling over $833,000 that otherwise would have been disallowed if
        the IRS had not implemented corrective action early in the 2003 Filing Season
        (see page 4).
Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify all taxpayers with a Dependency Status Indicator4 of “1”
and the total retirement savings contributions credits allowed by the IRS that would have been
disallowed if the IRS had not corrected the computer program error that we identified in a prior
review.5
Type and Value of Outcome Measure:
    •   Revenue Protection – Potential; 8,860 taxpayers received over $4 million of retirement
        savings contributions credits in excess of the amount allowable under the law
        (see page 5).



1
  The Additional Child Tax Credit totals were accumulated through August 1, 2003, at the request of the IRS.
2
  The IMF is the IRS database that maintains transactions or records of individual tax accounts.
3
  The period from January through mid-April when most individual income tax returns are filed.
4
  A taxpayer may indicate that he or she could be claimed on the tax return of another taxpayer by not checking the
personal exemption box for self on line six of the return. When a taxpayer makes such an indication, IRS processing
sets a value known as the Dependency Status Indicator to “1.”
5
  Computer Programming Requests for the 2003 Filing Season Were Timely Prepared and Generally Accurate
(Reference Number: 2003-40-112, dated May 2003).
                                                                                                          Page 17
                The 2003 Filing Season Was Completed Timely and Accurately,
              but Some New Tax Law Changes Were Not Effectively Implemented

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify the number of taxpayers with retirement savings
contributions credits that exceeded the amount allowable under the tax law based upon their
Adjusted Gross Income (AGI)6 and filing status. In certain instances, the potential tax effect
from the excess credit allowed may be less since this credit is not refundable and may only be
used to reduce the tax liability.
Type and Value of Outcome Measure:
    •    Revenue Protection – Potential; 6,837 taxpayers received over $5 million of student loan
         interest deductions in excess of the amount allowable under the law. Assuming all
         6,837 taxpayers received a tax benefit from the student loan interest deduction, the
         estimated tax effect is $500,000 (see page 5).7
Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify the number of taxpayers that were erroneously allowed
student loan interest deductions that exceeded the allowable amount under the tax law based
upon their modified AGI and filing status. In certain instances, the potential tax effect from the
excess deductions may be reduced. This would be true if the taxpayer’s income level was too
low and did not create a tax liability high enough to benefit fully by the amount of excess
deductions.
Type and Value of Outcome Measure:
    •    Taxpayer Rights and Entitlements – Potential; 293,833 taxpayers appear eligible for, but
         did not claim, Additional Child Tax Credits (ACTC) totaling $131 million (see page 7).
Methodology Used to Measure the Reported Benefit:
To identify taxpayers and credits not claimed, we selected only the TY 2002 returns for which
IRS processing determined that the taxpayer was eligible for the Child Tax Credit (CTC), but not
all the CTC had been used to offset the taxpayer’s tax liability, and the following three
conditions: (1) the taxpayer did not claim the ACTC, (2) the taxpayer had sufficient earned
income to qualify for the ACTC, and (3) the taxpayer showed a tax liability of zero.
Type and Value of Outcome Measure:
    •    Revenue Protection – Potential; 42,058 taxpayers erroneously claimed approximately
         $77 million in tuition and fees deductions. Assuming all 42,058 taxpayers received a tax


6
  The AGI is calculated after certain adjustments are made, but before standardized and itemized deductions and
personal exemptions are subtracted. Modified AGI is AGI calculated without regard to certain deductions or
exclusions.
7
  We used the lowest tax rate of 10 percent to compute the tax effect (i.e., 10 percent times $5 million of student
loan interest deductions equals a tax effect of $500,000).
                                                                                                              Page 18
                The 2003 Filing Season Was Completed Timely and Accurately,
              but Some New Tax Law Changes Were Not Effectively Implemented

         benefit from the tuition and fees deduction, the estimated tax effect is $7.7 million8
         (see page 9).
Methodology Used to Measure the Reported Benefit:
One of the criteria we used in analyzing the TY 2002 individual income tax return records was to
identify all taxpayers who claimed, and were allowed, the tuition and fees deduction and the
education credit. We also identified the total amount of tuition and fees deductions and the total
amount of education credits allowed by the IRS. This analysis identified 294,743 taxpayers that
were allowed nearly $608 million of tuition and fees deductions and over $231 million of
education credits. Since the tax law prohibits taxpayers from claiming both the deduction and
the credit for the same individual, we conducted further computer analysis on the 294,743
taxpayers to identify the number of taxpayers that filed as “single” with no dependents.9 This
analysis identified 42,058 taxpayers that claimed nearly $77 million in tuition and fees
deductions and over $24 million in education credits.10
Type and Value of Outcome Measure:
    •    Revenue Protection – Potential; 252,685 taxpayers may have received a “dual benefit” by
         claiming the tuition and fees deduction and the education credit (see page 9).
Methodology Used to Measure the Reported Benefit:
The 252,685 potential taxpayers represents the difference between the 294,743 and
42,058 taxpayers discussed in the previous outcome measures. These 252,685 taxpayers
claimed $531 million ($608 million less $77 million) in tuition and fees deductions and
$207 million ($231 million less $24 million) in education credits.




8
  We used the lowest tax rate of 10 percent to compute the tax effect (i.e., 10 percent times $77 million of tuition and
fees deductions equals a tax effect of $7.7 million).
9
  We focused on single taxpayers with no dependents because it is clear that both the tuition and fees deduction and
the education credit would have been claimed for the same individual, which is not allowable and, therefore, an
error. It is not as clear with the taxpayer populations that filed as married filing jointly with or without dependents,
head of household, and single with dependents. These taxpayers could have claimed the tuition and fees deduction
and education credit for the same individual or for different individuals, which is allowable.
10
   The tuition and fees deduction would be disallowed if the taxpayer also claims the education credit.
                                                                                                              Page 19
                The 2003 Filing Season Was Completed Timely and Accurately,
              but Some New Tax Law Changes Were Not Effectively Implemented

                                                                                                  Appendix V



             Table: Tax Law Changes That Were Not Correctly Implemented1

        Type of Deduction              Returns                  Erroneous
                                                                                        Percentage(c)
            or Credit                 Processed(a)              Returns(b)
        Retirement Savings             3.5 million                8,860
                                                                                            0.25%
        Contributions Credit                                    (potential)
           Student Loan                6.1 million                6,837
                                                                                            0.11%
         Interest Deduction                                     (potential)
                                                                  42,058
                                                                                            1.28%
          Tuition and Fees                                      (potential)
                                       3.3 million
             Deduction                                           252,685
                                                                                            7.66%
                                                                (potential)
      Source: Returns processed were obtained from the Internal Revenue Service Taxpayer Usage Study Weekly
      Report #13. Erroneous returns were taken from the audit findings discussed in this report.


(a)
      This column shows the total number of returns processed by the Internal Revenue Service
      (IRS) through May 2, 2003, that claimed the deductions or credits listed in the table.
(b)
      This column shows the actual or potential number of erroneous returns processed by the IRS
      through May 16, 2003, that we identified.
(c)
      This column shows the percentage of erroneous returns to total returns processed. The IRS
      did not have a report available to correspond with the date of our audit work. However, we
      estimate the potential increase in the returns processed would be small and have a negligible
      effect on the calculated percentages.




1
  This table excludes the 4,083 returns on which the taxpayer received retirement savings contributions credits
totaling over $833,000 that otherwise would have been disallowed if the IRS had not implemented corrective action
early in the filing season.
                                                                                                         Page 20
                  The 2003 Filing Season Was Completed Timely and Accurately,
                but Some New Tax Law Changes Were Not Effectively Implemented

                                                                                                   Appendix VI


             Listing of Prior Reviews to Assess the Internal Revenue Service’s
                            Preparation for the 2003 Filing Season

The following is a list of four 2003 Filing Season1 reviews that are included in our Fiscal
Year 2003 Annual Audit Plan for the Treasury Inspector General for Tax Administration’s Wage
and Investment (W&I) Income Programs, Customer Account Services business unit. The overall
purpose of the reviews was to evaluate the Internal Revenue Service’s (IRS) success in planning
and executing the 2003 Filing Season. The specific objective for each review is shown below.

The Internal Revenue Service Has Procedures to Ensure There Is Sufficient Trained Staff to
Process Individual Income Tax Returns in 2003 (Reference Number: 2003-40-055,
dated February 2003)

      •    Overall Objective: To determine whether the IRS’ W&I Division has procedures in place
           to ensure there is a sufficient number of trained staff to process individual income tax
           returns during the 2003 Filing Season.

Pre-Filing Season Activities to Address Specific Individual Electronic Filing Issues Were
Adequately Conducted (Reference Number: 2003-40-073, dated March 2003)

      •    Overall Objective: To determine the state of readiness of the IRS to accept electronically
           filed individual income tax returns for processing during the 2003 Filing Season. The
           audit was limited to the activities necessary to ensure the acceptance of electronic returns
           that may be affected by tax law change provisions relating only to the education and
           retirement provisions.

Forms and Publications for the New Education and Retirement Tax Provisions Were
Addressed for the 2003 Filing Season (Reference Number: 2003-40-105, dated April 2003)

      •    Overall Objective: To determine whether the IRS identified the new tax law provisions
           that had a significant impact on W&I Division taxpayers and ensured that tax forms,
           instructions, and publications related to these new provisions were clearly and accurately
           updated for the 2003 Filing Season. The audit focused on the education and retirement
           provisions in the Economic Growth and Tax Relief Reconciliation Act of 2001




1
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                        Page 21
               The 2003 Filing Season Was Completed Timely and Accurately,
             but Some New Tax Law Changes Were Not Effectively Implemented

         (EGTRRA).2 These provisions could affect an estimated 86.5 million taxpayers3 by
         providing tax benefits of up to $7.6 billion in Fiscal Year 2003.4

Computer Programming Requests for the 2003 Filing Season Were Timely Prepared and
Generally Accurate (Reference Number: 2003-40-112, dated May 2003)

    •    Overall Objective: To determine whether the IRS timely prepared and accurately
         initiated computer programming requests5 for new tax law provisions that affect
         individual income tax return processing during the 2003 Filing Season. The audit
         focused on those requests for computer programming changes needed to implement the
         education and retirement provisions in the EGTRRA.




2
  Pub. L. No. 107-16, 115 Stat. 38 (2001).
3
  National Center for Education Statistics, Projections of Education Statistics to 2012, May 2002, and United States
Selected Income and Tax Items 1040, 1040A, and 1040EZ, Report Number R-S-92, January – September 2002.
4
  Congressional Budget Office, Pay-As-You-Go Estimate, June 4, 2001.
5
  Requests for Information Services.
                                                                                                            Page 22
               The 2003 Filing Season Was Completed Timely and Accurately,
             but Some New Tax Law Changes Were Not Effectively Implemented

                                                                                                  Appendix VII


              Overview of Tax Law Provisions Examined During the Review

The following information describes various tax law provisions that affect Tax Year (TY) 2002
individual income tax returns. During our review, we determined if returns containing the
various provisions were accurately processed, in accordance with the law.

Economic Growth and Tax Relief Reconciliation Act of 2001 (EGTRRA)1
The EGTRRA contained the following six tax law provisions:
    1) Higher Contribution Limits for Individual Retirement Arrangements (IRA) Deductions –
       These higher limits increase the maximum deductible contribution amount for both
       traditional and Roth IRA deductions from $2,000 per individual to $3,000 for TYs 2002
       and beyond. In addition, individuals age 50 or older at the end of the tax year can make
       an additional deduction of up to $500 for catch-up contributions. In TY 2005, the
       maximum contribution limit increases to $4,000, and for TYs 2008 and later it increases
       to $5,000. Separately, the catch-up contributions also increase from $500 to $1,000 for
       TYs 2006 and later.2
        The IRA deduction is limited based upon the taxpayer’s modified Adjusted Gross Income
        (AGI)3 if the taxpayer is covered by a retirement plan at work or has a self-employment
        retirement plan.4 As the taxpayer’s modified AGI exceeds a defined threshold, the
        deduction allowed is reduced until it is eliminated when modified AGI exceeds the
        maximum. This phase-out can be illustrated by the following hypothetical example: a
        single taxpayer, who is covered by a retirement plan, with a modified AGI of $34,000 can
        claim up to $3,000 in IRA deductions (up to $3,500 if age 50 or older). However, if the
        taxpayer’s modified AGI was $40,000, the maximum deduction would be limited to
        $1,200 (up to $1,400, if age 50 or older). Once this taxpayer’s modified AGI reaches
        $44,000, the IRA deduction is eliminated completely.
    2) Retirement Savings Contributions Credit – This credit provides low- and middle-income
       taxpayers a nonrefundable tax credit for qualified contributions or deferrals to retirement
       savings plans. This credit can be claimed in addition to the IRA deduction. The credit
       amount is equal to a percentage (maximum of 50 percent) of the qualified contributions
       (not to exceed $2,000). Therefore, the maximum credit amount per taxpayer is


1
  Pub. L. No. 107-16, 115 Stat. 38 (2001).
2
  Internal Revenue Code (I.R.C.) § 219 (2002).
3
  The AGI is calculated after certain adjustments are made, but before standard or itemized deductions and personal
exemptions are subtracted. Modified AGI is AGI calculated without regard to certain deductions or exclusions.
4
  There is no phase-out for taxpayers that are not covered by a retirement plan.
                                                                                                           Page 23
               The 2003 Filing Season Was Completed Timely and Accurately,
             but Some New Tax Law Changes Were Not Effectively Implemented

        $1,000 ($2,000 for married taxpayers filing jointly). The percentage is decreased based
        upon the taxpayer’s filing status and AGI. Once the AGI reaches a certain level, the
        credit is eliminated. A table provides the applicable percentage based upon the filing
        status and AGI. For example, for TY 2002, a single taxpayer with an AGI of $15,000 or
        less can claim the maximum retirement savings contributions credit of $1,000, if
        otherwise eligible. However, if the taxpayer’s AGI is $20,000, the maximum credit is
        reduced to $200. If the AGI exceeds $25,000, the taxpayer is ineligible for the credit.
        Higher AGI limits exist for a taxpayer filing as head of household ($37,500 maximum) or
        married filing jointly ($50,000 maximum). The credit is effective for tax years beginning
        on or after January 1, 2002, and is scheduled to expire as of TY 2007.5
    3) Student Loan Interest Deduction Expansion – The student loan interest deduction allows
       individual taxpayers to take a deduction for interest on loans taken out to pay for
       qualified higher education expenses, such as college tuition. This above-the-line
       deduction is limited to a maximum of $2,500 and is further reduced as the modified AGI
       exceeds a certain level. For single taxpayers, the phase-out range was increased to
       $50,000 – $65,000 (previously $40,000 – $55,000). As the modified AGI exceeds
       $50,000, the deduction is reduced by a certain ratio or percentage until it is completely
       phased out when the modified AGI equals or exceeds $65,000. For example, a single
       taxpayer with a modified AGI of $50,000 could take the maximum $2,500 deduction.
       However, if the modified AGI was $59,000, the maximum deduction would be limited to
       $1,000. For married taxpayers filing jointly, the phase-out range was increased to
       $100,000 – $130,000 (previously $60,000 – $75,000). Married taxpayers filing
       separately are not allowed to take this deduction. In addition to the increase to the
       phase-out ranges, the 60-month limitation for interest payments to be deductible was
       repealed. These changes to the student loan interest deduction are effective for tax years
       beginning on or after January 1, 2002.6
    4) Child Tax Credit (CTC) and Additional Child Tax Credit (ACTC) – The EGTRRA
       included several new provisions for TY 2001 intended to provide tax relief to
       low-income families.7 Among these was a provision to modify the existing CTC. The
       CTC was established by the Tax Relief Act of 1997 (TRA 97)8 and was the first tax credit
       based solely on a family’s number of children. The TRA 97 initially provided a
       $500 credit for each child in the family under the age of 17. The Congress believed this
       credit would help reduce the tax burden for taxpayers, recognize the financial
       responsibilities of raising dependent children, and promote family values.


5
  I.R.C. § 25B (2002).
6
  I.R.C. § 221 (2002).
7
  For the purpose of this report, low-income taxpayers are considered to have earned income of less than $25,000,
regardless of family size.
8
  Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of 5 United States Code (U.S.C.),
19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app).
                                                                                                           Page 24
               The 2003 Filing Season Was Completed Timely and Accurately,
             but Some New Tax Law Changes Were Not Effectively Implemented

        In Congressional testimony9 prior to the passage of the EGTRRA, concern was raised that
        the original proposal to increase the amount of the CTC over the next 10 years to a
        maximum of $1,000 per child would not benefit an estimated 12.2 million low- and
        moderate-income families with children. To address this concern, the Congress modified
        the CTC provisions and made the credit refundable for taxpayers with any number of
        children. All taxpayers can now receive a refund of their CTC when they have no tax
        liability; however, the refund is limited to 10 percent of a taxpayer’s earned income over
        $10,350. This percentage will be increased to 15 percent for TYs 2005 and beyond.
        Refundable CTC is commonly known as the ACTC. The recently enacted Jobs and
        Growth Tax Relief Reconciliation Act of 200310 accelerated the credit increase so that
        taxpayers can take a $1,000 credit per child in TYs 2003 and 2004.
    5) Tuition and Fees Deduction – A new above-the-line deduction or adjustment to income is
       provided to individual taxpayers for qualified tuition and related expenses. Because it is
       above-the-line, this deduction can be taken even if the taxpayer does not itemize
       deductions. It is effective for tax years beginning on or after January 1, 2002, and is
       scheduled to expire as of TY 2006. The deduction is limited to a maximum of
       $3,000 (it increases to $4,000 in TYs 2004 and 2005). A taxpayer cannot take the
       deduction if his or her modified AGI exceeds $65,000 ($130,000 for married taxpayers
       filing jointly). Married taxpayers filing separately are not allowed to take this deduction.
       In TYs 2004 and 2005, a smaller deduction of $2,000 will be available to higher-income
       taxpayers, e.g., those with an AGI of $65,001 – $80,000 ($130,001 – $160,000 for
       married taxpayers filing jointly). This deduction cannot be taken for a student’s
       educational expenses if the taxpayer is claiming either the Hope or Lifetime Learning
       Credit education credits for that same student.11
    6) Adoption Credit Increase – For tax years beginning on or after January 1, 2002, the
       adoption tax credit is increased from a maximum of $5,000 to $10,000. In addition, the
       phase-out range, whereby a taxpayer’s potential credit is reduced or eliminated, was
       raised from $75,000 – $115,000 to $150,000 – $190,000. Therefore, in TY 2002,
       taxpayers with a modified AGI of up to $150,000 can claim an adoption credit of
       $10,000 before any reductions have to be made in the credit computation.12
Job Creation and Worker Assistance Act of 200213
This Act contained the following tax law provision:


9
  President’s Tax Relief Proposals: Tax Proposals Affecting Individuals, Hearing Before The Committee On Ways
And Means House Of Representatives, Serial No. 107–6 (March 21, 2001).
10
   Pub. L. No. 108-27, 117 Stat. 752 (2003).
11
   I.R.C. § 222 (2002).
12
   I.R.C. § 23 (2002).
13
   Pub. L. No. 107-147, 116 Stat. 21 (codified as amended in scattered sections of 26 U.S.C., 29 U.S.C., and
42 U.S.C.).
                                                                                                      Page 25
                  The 2003 Filing Season Was Completed Timely and Accurately,
                but Some New Tax Law Changes Were Not Effectively Implemented

           New Deduction for Educator Expenses – This provision allows qualified educators,
           including teachers, counselors, and principals, to take an above-the-line deduction of up
           to $250 for qualified expenses such as books, supplies, and equipment that are used in the
           classroom. For married taxpayers filing jointly, the deduction can be up to $500 if both
           spouses are qualified educators. In contrast to other credits and deductions, this
           deduction is not reduced or phased out based upon the taxpayer’s AGI.14




14
     I.R.C. § 62 (2002).

                                                                                             Page 26
  The 2003 Filing Season Was Completed Timely and Accurately,
but Some New Tax Law Changes Were Not Effectively Implemented

                                                          Appendix VIII


        Management’s Response to the Draft Report




                                                                Page 27
  The 2003 Filing Season Was Completed Timely and Accurately,
but Some New Tax Law Changes Were Not Effectively Implemented




                                                                Page 28
  The 2003 Filing Season Was Completed Timely and Accurately,
but Some New Tax Law Changes Were Not Effectively Implemented




                                                                Page 29
  The 2003 Filing Season Was Completed Timely and Accurately,
but Some New Tax Law Changes Were Not Effectively Implemented




                                                                Page 30
  The 2003 Filing Season Was Completed Timely and Accurately,
but Some New Tax Law Changes Were Not Effectively Implemented




                                                                Page 31
  The 2003 Filing Season Was Completed Timely and Accurately,
but Some New Tax Law Changes Were Not Effectively Implemented




                                                                Page 32
